<html>
<title> - CONJUNCTIVE WATER MANAGEMENT: A SOLUTION TO THE WEST'S GROWING WATER DEMAND?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 CONJUNCTIVE WATER MANAGEMENT: A SOLUTION TO THE WEST'S GROWING WATER 
                                DEMAND?

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ENERGY AND RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 5, 2006

                               __________

                           Serial No. 109-142

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-514                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

                  Subcommittee on Energy and Resources

                 DARRELL E. ISSA, California, Chairman
LYNN A. WESTMORELAND, Georgia        DIANE E. WATSON, California
ILEANA ROS-LEHTINEN, Florida         BRIAN HIGGINS, New York
JOHN M. McHUGH, New York             TOM LANTOS, California
PATRICK T. McHENRY, North Carolina   DENNIS J. KUCINICH, Ohio
KENNY MARCHANT, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                   Lawrence J. Brady, Staff Director
                 Dave Solan, Professional Staff Member
                          Lori Gavaghan, Clerk
          Richard Butcher, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 5, 2006....................................     1
Statement of:
    Peltier, Jason, Deputy Assistant Secretary for Water and 
      Science, Department of Interior; P. Joseph Grindstaff, 
      director, California Bay-Delta Authority; and Anthony J. 
      Pack, general manager, Eastern Municipal Water District, 
      Perris, CA.................................................    12
    Grindstaff, P. Joseph                                            20
    Pack, Anthony J.                                                 32
    Peltier, Jason                                                   12
Letters, statements, etc., submitted for the record by:
    Grindstaff, P. Joseph, director, California Bay-Delta 
      Authority, prepared statement of...........................    22
    Issa, Hon. Darrell E., a Representative in Congress from the 
      State of California:
    Briefing memo................................................     6
    Prepared statement of........................................     3
    Pack, Anthony J., general manager, Eastern Municipal Water 
      District, Perris, CA, prepared statement of................    35
    Peltier, Jason, Deputy Assistant Secretary for Water and 
      Science, Department of Interior, prepared statement of.....    15


 CONJUNCTIVE WATER MANAGEMENT: A SOLUTION TO THE WEST'S GROWING WATER 
                                DEMAND?

                              ----------                              


                        WEDNESDAY, APRIL 5, 2006

                  House of Representatives,
              Subcommittee on Energy and Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the subcommittee) presiding.
    Present: Representatives Issa and Kucinich.
    Staff present: Larry Brady, staff director; Lori Gavaghan, 
legislative clerk; Tom Alexander, counsel; Dave Solan, Ph.D., 
and Ray Robbins, professional staff members; Richard Butcher, 
minority professional staff member; and Cecelia Morton, 
minority office manager.
    Mr. Issa. This meeting will come to order. A quorum being 
present, this hearing of the Government Reform Subcommittee on 
Energy and Resources will come to order.
    Good afternoon.
    We want to welcome our distinguished panel for today's 
subcommittee hearing. Today, we will highlight the growing 
demand for water in Western States and how conjunctive water 
management provides a partial solution.
    Booming population growth, coupled with arid climates, have 
intensified the need for more efficient water supply management 
systems. In response, several methods have been employed to 
maximize water supply, such as conservation programs, 
construction of new dams, and desalination plants.
    Despite these methods of water supply and infrastructure in 
California and throughout the West, we continue to remain 
vulnerable to an impending crisis. This issue is of paramount 
importance to my constituents in southern California and 
throughout the entire West.
    Some experts propose that conjunctive water management is 
the leading and most effective method of resolving water 
shortage problems. Conjunctive--thank you, gentlemen. I know 
you will say it better than I do. Conjunctive water management 
is a tool which coordinates the use of surface and ground 
water, focusing on the creation of additional water storage.
    This method of water management has the potential to 
double--I repeat, to double--the amount of on-demand water 
supply in my home State of California. However, there also are 
some challenges to the expansion of conjunctive use management.
    These include acquiring necessary resources to build new or 
refit current facilities, possible environmental problems--
which we will deal with today--and lack of data on regional 
water tables.
    The hearing today will provide an overview on how well 
current conjunctive water management projects are working. Our 
hearing will also address the benefits and shortcomings of 
conjunctive water management systems. Finally, we will look at 
the Federal role in the design, funding, or implementation of 
conjunctive water management systems.
    I look forward to hearing from our distinguished panel 
today. And today, we have Mr. Jason Peltier, Deputy Assistant 
Secretary of water and science, Department of Interior.
    Mr. Joseph Grindstaff, director of California Bay-Delta 
Authority. And Anthony Pack, general manager, Eastern Municipal 
Water District, Perris, CA, within my district, I will mention.
    [The prepared statement of Hon. Darrell E. Issa follows:]

    [GRAPHIC] [TIFF OMITTED] T7514.001
    
    [GRAPHIC] [TIFF OMITTED] T7514.002
    
    Mr. Issa. I look forward to hearing all of your testimony, 
and I ask unanimous consent that the briefing memo prepared by 
the subcommittee staff be inserted in the record, as well as 
all relevant material.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7514.003
    
    [GRAPHIC] [TIFF OMITTED] T7514.004
    
    [GRAPHIC] [TIFF OMITTED] T7514.005
    
    [GRAPHIC] [TIFF OMITTED] T7514.006
    
    [GRAPHIC] [TIFF OMITTED] T7514.007
    
    Mr. Issa. Now for the opening statement, I will yield to 
the gentleman from Ohio, who is serving for the ranking member 
today.
    Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    I was called by Congresswoman Watson and informed that a 
death in her family made it imperative that she attend a 
service in California, and I am glad to fill in so we can start 
this hearing.
    After I make this statement, I am going to have to go to 
another previously scheduled meeting. But I want to welcome the 
witnesses, and I want to thank the Chair for calling this 
hearing on conjunctive water management.
    Mr. Chairman, the need for reliable, high-quality water 
sources in the United States is clear. The population continues 
to grow steadily, especially in the arid, thirstiest parts of 
the country. Demand for water is growing even faster.
    In fact, many experts fear that the thirsty and rapidly 
growing Southwestern United States will need water so 
desperately that it will soon become financially viable for 
them to try to divert it from the Great Lakes. And that region 
is expected to experience more frequent, prolonged, and more 
severe droughts as a result of climate change, making the 
outlook even more dire. We must look for alternatives.
    As has been stated before, conjunctive water management is 
the simultaneous operation of surface water storage and use, 
ground water storage and use, and conveyance facilities to meet 
water management needs and crop demand. In a nutshell, it 
allows storage of large quantities of water, which would help 
areas weather the fluctuations in water supply that climate 
change will bring.
    For several decades, the Federal Government, along with 
many State and local governments, has used conjunctive water 
management projects for a variety of purposes, such as flood 
control, power generation, irrigation, and several other 
purposes. It has also been a resource to improve water supply 
reliability and protect water quality to improve environmental 
conditions.
    At the same time, there are concerns, especially about 
potential environmental effects. If the recharge water is 
contaminated, an entire water supply could be permanently 
ruined. For example, an illegal discharge of a gallon of gas is 
enough to render millions of gallons of water undrinkable. If 
the recharge water will filter through the soil to reach the 
storage aquifer, some contaminants might still make it through 
to the water, even in tight soil.
    The lands required to allow such infiltration through soil 
can concentrate water contaminants over time in the soil, 
rendering the land useless in the future. And the physical 
infrastructure could adversely affect wildlife habitats.
    Conjunctive water management has the potential to alleviate 
some of the pressure on an expanding population and economy. 
But we must move forward with our eyes open to ensure our 
environment is fully protected. And I am hopeful that the 
testimony before this subcommittee today, Mr. Chairman, will 
help the Congress better understand some of the potential 
benefits and pitfalls of conjunctive water management.
    I yield back my time, and I thank the Chair.
    Mr. Issa. Thank you, Mr. Kucinich.
    As is the rule of this subcommittee, I would ask that all 
the witnesses and any persons who may advise the witnesses rise 
to take the oath, please.
    [Witnesses sworn.]
    Mr. Issa. Let the record show all answered in the 
affirmative.
    And thanks again, Mr. Kucinich.
    Now I will give you the good news and the bad news here 
today. The good news is that we won't hold you strictly to your 
5 minutes for your presentations. The additional good news is 
that your entire written statement will be placed in the 
record. So you need not repeat it, if you choose not to.
    Now, the bad news is at some time, potentially, between now 
and 3, there will be an unexpected vote, at which time this 
will end. So the time used, you know, if a vote gets called, we 
will not make up.
    Additionally, because of a classified briefing being held 
today, this hearing must end at 3. So I don't expect us to go 
past that, but I wanted to give you all that opportunity.
    And last, but not least, I want to ask if you would all 
agree, since many Members are in other committee markups right 
now, to answer additional questions placed to you in writing 
after the hearing? OK. Then by unanimous consent, I would ask 
that we be able to do that. And so ordered.
    We will begin with Mr. Peltier.

  STATEMENTS OF JASON PELTIER, DEPUTY ASSISTANT SECRETARY FOR 
     WATER AND SCIENCE, DEPARTMENT OF INTERIOR; P. JOSEPH 
   GRINDSTAFF, DIRECTOR, CALIFORNIA BAY-DELTA AUTHORITY; AND 
   ANTHONY J. PACK, GENERAL MANAGER, EASTERN MUNICIPAL WATER 
                      DISTRICT, PERRIS, CA

                   STATEMENT OF JASON PELTIER

    Mr. Peltier. Thank you, Mr. Chairman.
    I'm pleased to be here today and to talk about conjunctive 
use with the subcommittee. Indeed, in your opening statement, 
you put your finger on it. There is an expanding use of this 
water management strategy where it is possible.
    It's not possible--it takes a right combination of surface 
and ground water resources to be able to make it work. But it 
is indeed--we're seeing increased use of this approach.
    I'm going to talk a little bit about the Bureau of 
Reclamation's role, but also about the U.S. Geological Survey 
role because they both have unique and can make significant 
contributions to conjunctive use.
    Relative to the Bureau of Reclamation, it's important to 
recognize that Reclamation's role in all cases that I'm aware 
of--and I will give you some specific examples--but it focuses 
on supplying surface water. Reclamation is on the surface water 
side of the equation. We are very deferential to State law, 
which regulates ground water. And so, as a matter of water 
rights law, we stay away from injecting ourselves--and excuse 
the pun--into this--into local conjunctive use projects.
    There's another Federal component also, which is on the 
regulatory side, and that has to do with compliance with the 
Clean Water Act and the Endangered Species Act. Those are 
outside of Reclamation or the GS's purview. But we are all 
mindful that those processes do exist.
    I'd like to give you a few examples. One, starting in 
California. Many of the customers of the Bureau's Central 
Valley Project do participate in water banks, local water 
banks. In fact, also the entire Friant Division of the Central 
Valley Project, approximately a million acres from Bakersfield 
to Fresno, is one large conjunctive use program. Not operated 
by us, but our customers--when in years like this, when there's 
ample surface water, will turn their wells off. Natural 
recharge will occur, and in drier years, when we cannot deliver 
surface water, they will turn their wells on, and that's the 
way they will sustain their irrigation.
    In Arizona, unused--Central Arizona Project water is stored 
underground in the Arizona water bank for use in future years, 
when the allocation may not be adequate for Arizona's needs. 
They can then withdraw from their water bank.
    In Washington State, a program was developed for local 
users to pump ground water and store it artificially in a 
surface reservoir, which has provided a multitude of benefits 
and maximized use of the Federal facility. Reclamation is also 
working with the city of Albuquerque in New Mexico on a project 
to reuse industrial and municipal effluent, to treat and put it 
underground for future use.
    So Reclamation has a number of roles. Mostly, though, it is 
working with their local customers who have the resource to 
match up to the surface water.
    The U.S. Geological Survey has a number of unique 
scientific capabilities and skills that they bring to the table 
to assist local entities that are trying to develop conjunctive 
use programs. They can provide hydrologic data for planning of 
these systems. They can provide hydrologic modeling and have 
techniques to help the planning and design process.
    They can apply their ground water models to specific 
regional systems to evaluate the potential for conjunctive use. 
And they also have a wealth of hydrologic data that goes into 
the planning processes for these projects.
    As I said, most of the GS's work is conducted through the 
U.S. GS Cooperative Water Program, and that's on a cost-share 
basis with local interests. We try to match up our skills and 
capabilities with the needs of our partners and work together 
in that constructive manner.
    In addition, GS has the capability to provide monitoring of 
existing and then once constructed facilities to give the 
project managers the ability to understand--know and understand 
how the project is going to perform and is performing.
    So, in summary, I would just say that we do see it as you 
do, Mr. Chairman, as a valuable tool. A tool that avoids--and 
as Mr. Grindstaff will let you know, in California, there has 
been a significant investment in conjunctive use ground water 
programs. In fact, significant progress has been made.
    And while there is, as you say, significant interest in 
surface water projects, these ground water projects are 
quicker, easier to get off the ground. The only caution that I 
would have is, that we need to be mindful of, I think, is that 
a lot of ground water banks and conjunctive use programs have 
been developed over the last decade in California, where 
conditions have been relatively wet.
    So I don't think we've experienced--we haven't tested the 
withdrawal part of the formula. We've tested and are capable of 
getting the water underground. When we have repeat of 1977 or 
the drought of the late 1980's and we have to extract, that's 
when we'll see whether the projects that we're investing in 
today really work.
    Thank you.
    [The prepared statement of Mr. Peltier follows:]

    [GRAPHIC] [TIFF OMITTED] T7514.008
    
    [GRAPHIC] [TIFF OMITTED] T7514.009
    
    [GRAPHIC] [TIFF OMITTED] T7514.010
    
    [GRAPHIC] [TIFF OMITTED] T7514.011
    
    [GRAPHIC] [TIFF OMITTED] T7514.012
    
    Mr. Issa. Thank you.
    I will take that there has never been a run on the bank, 
and we are waiting for a 1929 test.
    OK? Only I can say that, I suspect.
    Mr. Grindstaff.

               STATEMENT OF P. JOSEPH GRINDSTAFF

    Mr. Grindstaff. Thank you very much, Mr. Chairman.
    I won't refer to my written testimony, but I'll talk about 
our experience. I actually have experience both at a local and 
regional level and now at the State level.
    In California, 15 years ago, everyone knew that conjunctive 
management was a great thing to do, that ground water storage 
was really important. Over the last 15 years, we've developed 
more than 7 million acre-feet of ground water storage.
    Jason is absolutely right. We have yet to test the 
extraction because we've really been in a wet cycle since then. 
But I think even the most optimistic person 15 years ago would 
never have guessed that we could actually develop the amounts 
of ground water storage that we've developed today.
    The State's role has been, in some cases, to help finance 
technical studies, and we've invested hundreds of millions of 
dollars in helping to do that across the State. In some cases, 
helping to build facilities, both facilities to put water in 
and extraction facilities, and in general to encourage that.
    I also want to point out that you are exactly right in your 
opening remarks. This is only a part of the solution. Without 
having the conveyance and the ability to take surface water 
deliveries when times are wet, having a place to store water 
doesn't do us a lot of good. So we really have to have a full 
program in order to truly develop conjunctive use programs.
    I also want to address water quality problems. One of the 
things that happens as you store water is not that you put poor 
quality water in, but that when you put water in, you actually 
raise the ground water table. And it comes up into an area 
where there is contamination.
    So one of the largest costs that sometimes occurs actually, 
is the cost of treating water when you extract it. Some of the 
contamination problems are natural. So you may find an aquifer 
that has high arsenic, for example, and that can be a 
challenge.
    But given our need in the West--and in the world, really--
for a reliable water supply, it's the kind of investment we 
have to make. We're past the time of cheap alternatives. We're 
in a time where we truly have to invest in the future, and we 
have to understand that some of those things are going to cost 
more money than we would have paid in the past. But they're 
worth it.
    20 years from now, people will say, boy, those people were 
visionary because they invested in these things. They cost a 
lot, but they're very much worth it.
    The other point that I'd really like to make is that, in 
some cases, doing conjunctive management dramatically improves 
water quality in a region. So there is conjunctive management, 
for example, what the Orange County water district is doing, 
where they're taking recycled water, running it through 
desalters, and putting that water--or they're planning to put 
that water into the ground.
    That will dramatically improve the water in the Orange 
County ground water basin, in addition to firming up their 
supply. So these projects can have multiple benefits that truly 
are farsighted.
    With that, thank you very much.
    [The prepared statement of Mr. Grindstaff follows:]

    [GRAPHIC] [TIFF OMITTED] T7514.013
    
    [GRAPHIC] [TIFF OMITTED] T7514.014
    
    [GRAPHIC] [TIFF OMITTED] T7514.015
    
    [GRAPHIC] [TIFF OMITTED] T7514.016
    
    [GRAPHIC] [TIFF OMITTED] T7514.017
    
    [GRAPHIC] [TIFF OMITTED] T7514.018
    
    [GRAPHIC] [TIFF OMITTED] T7514.019
    
    [GRAPHIC] [TIFF OMITTED] T7514.020
    
    [GRAPHIC] [TIFF OMITTED] T7514.021
    
    [GRAPHIC] [TIFF OMITTED] T7514.022
    
    Mr. Issa. Thank you.
    Once again, all of your statements will be in the record. I 
do appreciate it when you are able to add to the base text.
    Tony, it is all yours. Everyone has been so good. There is 
high hurdle here.

                  STATEMENT OF ANTHONY J. PACK

    Mr. Pack. Mr. Chairman, you believe how much I've struggled 
to get this thing down to 5 minutes, and I'm glad it's in the 
record.
    My name is Tony Pack, and I'm the general manager of 
Eastern Municipal Water District. On behalf of my organization 
and my board of directors, it's a real privilege to be here to 
present this testimony on a local agency's perspective on 
conjunctive water management and the potential participation of 
the Federal and State government.
    EMWD provides water, waste water, and recycled services for 
about 580,000 people in Western Riverside County in southern 
California, including parts of the chairman's district, one of 
the fastest-growing regions in the Nation.
    EMWD relies on imported water to meet 65 percent of its 
needs and supplements the remainder with recycled water, ground 
water wells, two desalters, a fledgling conjunctive use 
program, and additional supplies, which have been developed 
almost entirely through the development of locally funded and 
managed projects.
    Based on our experience with the development of new water 
through conjunctive use and our efforts to develop a ground 
water management plan with the local agencies, we would suggest 
several recommendations in the area of partnership, funding, 
and environmental areas.
    An essential element of the development of a conjunctive 
water management program is the administrative and operational 
procedures that are necessary to develop and maintain such an 
agreement. These rules can be established through a court order 
adjudication, which requires many years of expensive legal 
efforts, or a cooperative community effort.
    In our area, the two cities, the two water agencies, and 
the private well users voluntarily began the process to develop 
a ground water management plan to permit a major conjunctive 
use project to be implemented and also to resolve a 
longstanding Indian water rights claim.
    It was necessary to overcome years of perceptions, mutual 
distrust and suspicion, and parochialism. And this was only 
possible through the efforts of Mr. Grindstaff's Department of 
Water Resources, which provided an independent facilitator and 
a technical team of DWR employees and consultants that created 
a nonconfrontational and credible forum for discussion and 
validation of data.
    First recommendation. Encourage programs similar to DWR's 
local agency partnership program throughout the Western States 
and create a similar program within the Federal agencies, 
perhaps under the auspices of the Bureau of Reclamation.
    Recommendation. Except for very large projects that provide 
a State-wide benefit, design and implementation of conjunctive 
use projects should be under local control.
    The infrastructure costs of implementing a conjunctive use 
program can be beyond the reach of many agencies. One solution 
is to develop financing for storage projects through a 
cooperative cost-sharing agreement with other agencies that 
recognize the multiple benefits of the project.
    Recommendation. Where multiple benefits can be 
incorporated, work with other local agencies to share the 
costs.
    Serving rapidly growing areas like ours requires enormous 
capital to provide water and waste water infrastructure. In 
many cases, it is more efficient and economical to oversize 
those facilities, although it may take many years to recoup 
that financial investment.
    Faced with limited financial resources, agencies are forced 
to use available cash to satisfy immediate needs for 
infrastructure, and beneficial projects such as new sources of 
water supply which do not always rise to the top of the 
priority list.
    Recommendation. State and Federal assistance for loans and 
grant programs for the development of new water supplies must 
continue to be funded. The economic returns of these programs 
far exceed the investments.
    EMWD has developed a highly structured and successful 
process for securing loans and grants to partially finance 
resource projects. Not all agencies have the resources to 
pursue State and Federal financial assistance programs. And 
therefore, we recommend the development of less costly and 
cumbersome application processes or, at a minimum, provide 
assistance to those agencies lacking resources to apply for 
loans and grants both at the Federal and State level.
    The last area is the area of environmental. Environmental 
permitting processes and the local coordination between Federal 
agencies is, in many cases, the major challenge in the 
development of a conjunctive use program. EMWD has spent the 
past 5 years and $1.8 million in an attempt to obtain a permit 
for an expanded recharge program in the San Jacinto riverbed.
    The proposed approval after 5 years from Fish and Wildlife 
Service is completely unworkable and will cause the project to 
be terminated. A chronology of our environmental activities and 
permitting attempts was provided in my written testimony.
    Common threads in this history are a lack of technical 
knowledge on the part of the agency's staffs, frequent changes 
in staff contacts, continuous requests for more documents and 
information, delays and missed deadlines, and, most annoying, a 
lack of response in just simple communications like a return 
telephone call or an e-mail.
    Our recommendation is to create regional interagency task 
forces of Federal agencies, such as the EPA, the Corps of 
Engineers, Fish and Wildlife, and the Bureau that would meet on 
a quarterly basis to provide for regional coordination of 
projects where multiple Federal agencies are involved. Agency 
decisionmakers would be required to attend, and project 
proponents would have an opportunity to bring up their concerns 
and issues.
    And the last recommendation is ESA reform is currently 
being discussed in the Congress and is desperately needed. ESA 
reform needs to move forward.
    I thank you and your subcommittee for allowing me, on 
behalf of my board of directors, to provide this testimony, and 
I'll now respond to your questions.
    [The prepared statement of Mr. Pack follows:]

    [GRAPHIC] [TIFF OMITTED] T7514.023
    
    [GRAPHIC] [TIFF OMITTED] T7514.024
    
    [GRAPHIC] [TIFF OMITTED] T7514.025
    
    [GRAPHIC] [TIFF OMITTED] T7514.026
    
    [GRAPHIC] [TIFF OMITTED] T7514.027
    
    [GRAPHIC] [TIFF OMITTED] T7514.028
    
    [GRAPHIC] [TIFF OMITTED] T7514.029
    
    [GRAPHIC] [TIFF OMITTED] T7514.030
    
    [GRAPHIC] [TIFF OMITTED] T7514.031
    
    [GRAPHIC] [TIFF OMITTED] T7514.032
    
    [GRAPHIC] [TIFF OMITTED] T7514.033
    
    Mr. Issa. Thank you.
    Mr. Pack, I think I will come right back to you. I actually 
have a very good memory. It is just short, so I will start with 
you first.
    Jason, just because that rings a bell, don't get too 
attached to it.
    I, too, am very disappointed in the lack of accountability 
and the lack of performance by sort of this combination of the 
Corps of Engineers and Fish and Wildlife, and I think you 
touched on it very well. But when you talked about having a 
task force, if I understood correctly--and I am not trying to 
put words in your mouth.
    But I mean, the failure that we have now is strictly the 
absence of accountability, absence of a mandate either to the 
Corps or to Fish and Wildlife. If I understand correctly, what 
you would like to see is one individual or accountable agency 
that would be responsible for timelines and, in fact, for the 
completeness of a request rather than, as I understand it, an 
infinite amount of, if you answer a question, then 6 months 
later, they come up with a new one.
    I know I am putting a lot in, but is that pretty much what 
you are trying to avoid?
    Mr. Pack. That may be one way to accomplish that, sir. But 
one of the agencies is usually the lead in the environmental 
permitting process. We started out with Fish and Wildlife. 
After about 3 years without any progress, based on a 
recommendation, the Corps of Engineers took over as lead under 
a 404 permit.
    The problem is that even the agencies, in our case, the 
Corps had identified our project as their No. 1 priority and 
communicated that to the Fish and Wildlife. Fish and Wildlife 
never responded even to the head of the regional Corps office, 
and much less to me.
    So I think there's--they all need to be in a room, and they 
need to be the principal decisionmakers, not the staff. We need 
to be able to have a forum somewhere with all the participating 
agencies that we can bring these issues up, and we can discuss 
where we haven't made progress.
    Mr. Issa. I want to be very clear on this point because 
throughout my district and my experience, that has been one of 
the problems, Fish and Wildlife more than the Corps.
    But the bottom line is that you don't get to the 
decisionmaker normally. Even when you ask for a meeting, the 
person they send is the person who is going to get back to you. 
And when they do get back to you, it is someone saying no or 
coming up with a creative new answer.
    If I understand correctly, you are calling for as often as 
quarterly meetings that would include the decisionmakers to 
make sure that, in fact, the project stayed on schedule? Is 
that roughly what you would like to see?
    Mr. Pack. That's a proposal. It doesn't necessarily have to 
be quarterly, but it has to be frequently. And in our case, 
we're trying to meet our own obligations to the State of 
California for a $5 million grant that we've been awarded for 
this project. And we've had to extend the timing of that grant 
twice because of the failure to obtain the permits.
    Mr. Issa. I would be remiss if, as a Californian, I didn't 
ask you to contrast Fish and Wildlife versus Fish and Game. 
[Laughter.]
    Mr. Pack. Actually----
    Mr. Issa. Sorry, Tony. No easy questions here.
    Mr. Pack. No. Fish and Game sometimes is difficult to deal 
with, but I have access to the people there, and I have my 
phone calls returned.
    In fact, we're working--we have, for many years, provided 
recycled water to the San Jacinto Wildlife Refuge, and we are 
expanding that project four times to provide additional water 
storage for us. The cooperation in that particular project from 
Fish and Game has been good.
    Mr. Issa. Excellent.
    Mr. Peltier, Mr. Kucinich alluded to taking water from a 
fifth of the water on the face of the Earth, which lies in the 
Great Lakes. Is that something you are aware of impending?
    Mr. Peltier. No, sir.
    Mr. Issa. OK. I am just checking. I won't ask you to 
elaborate.
    Mr. Peltier. I won't even joke about it.
    Mr. Issa. OK. Fair enough.
    Dennis and I, by the way, are both native Clevelanders, so 
I just had to get that one in for my mom.
    However, I would like to ask each of you to comment, 
because we have talked about California, and we will continue 
to stay on it mostly. But I think, particularly from Mr. 
Peltier, Florida.
    One of our members of this subcommittee who isn't here 
because she has her own chair that she is presently in--Florida 
is a place that has a lowering water table and the intrusion of 
salt water. How do you view conjunctive use relative to regions 
outside California and Florida, as an example, if you can 
include it?
    Mr. Peltier. The most relevant thing I can bring to the 
table in the situations in Florida is that is a great place for 
the U.S. Geological Survey to deploy its scientific resources 
to inform the decisionmakers.
    We don't have a water management--Interior doesn't have a 
water management role, per se. But the science behind making 
conjunctive use work in holding back sea water and so forth is 
essential to make sure that any investment is, indeed, a wise 
investment. And----
    Mr. Issa. Please.
    Mr. Peltier [continuing]. Might I comment on Tony's 
concerns? Nobody will give me permission to talk on behalf of 
the Fish and Wildlife Service, so I'm a little bit limited in 
responding to him in that regard.
    But I did, when I got an advance copy of his testimony, 
read it and provided it to Fish and Wildlife Service management 
and had discussion with them about it. So one--one 
accomplishment has already occurred, which is getting on the 
screen of management that we got a problem--or they have a 
problem here.
    I will be pleased to continue to try and facilitate some 
dialog and discussion between Tony and the service because any 
citizen can listen to him and say that doesn't sound like the 
way we want government to work. I don't know all the facts and 
details, but--so I don't want to dis the Fish and Wildlife 
Service, but I'll try to see what I can do to help.
    Mr. Issa. Well, I certainly appreciate it. The Fish and 
Wildlife obviously has an important role. This committee and 
other committees in the Congress rely heavily on their 
providing real protection for not just fish and wildlife, but, 
in fact, for endangered and potentially endangered species and 
a maintenance of a lifestyle that American people count on us 
for. I also don't want to throw them under the bus 
unnecessarily.
    However, when we look at the availability of both surface 
and ground water, it is one of those areas in which we are 
supposed to be on the same side. We are supposed to agree to 
the beneficial effects. Often, we agree to it in principle, and 
in the case of another project that I have in another part of 
my district, you end up with a water project that, in fact, is 
now breeding birds, which is fine, except it is supposed to be 
a levee to prevent flooding. So we often find some very 
unintended consequences.
    To that extent, and maybe perhaps beyond Fish and Wildlife 
for a moment, are there Federal actions, policies, or 
regulations that inhibit or deter local adoption of conjunctive 
water management? I could probably look at each of you, and 
from three different places on the totem pole, you could answer 
that.
    Mr. Peltier. Sure. There are a suite of environmental laws 
and regulations that are designed to make sure that if people 
want to propose an infrastructure development, a project, that 
the values and goals of the Clean Water Act, the Endangered 
Species Act, etc., are taken into account and accounted for. 
And then some of those could have an inhibiting impact.
    There is, however, also a great desire within Reclamation 
and in the GS to partner up with folks and make progress 
because the challenges associated with limited water supply 
have the potential for great economic impact. It's the kind of 
the mission of the agencies to be a helpful partner. So there's 
a little of both there, I would say.
    Mr. Issa. Well, of course, for Interior, if you are going 
to--speaking as a Californian--if you are going to play Solomon 
with the Colorado River water allocation, we definitely think 
we ought to all be working together.
    Joseph.
    Mr. Grindstaff. Yes, I want to agree with a lot of what 
both my co-panelists have said.
    Mr. Issa. By the way, this is not one of those in which 
controversy is required. It often occurs, but we actually don't 
demand it as a condition of your being on the panel.
    Mr. Grindstaff. Oh, good. Good, because I don't think this 
will be controversial, although my most recent assignment in 
the last few months has been CALFED. And CALFED was built on, 
first, trying to get agencies to work together.
    And for those that don't know, 15 years ago, California 
Delta was dysfunctional because the agencies couldn't get 
together and couldn't develop a plan. We have in fact, 
developed a plan that hasn't been perfectly successful, but we 
do have people talking to one another and have a process that I 
think over time, with probably lots of money, will make a real 
difference.
    I very much support the suggestion by Tony that it's 
important to have decisionmakers come together and discuss 
issues because, in the end, we all have to balance the 
different responsibilities that are out there. And you can't do 
that by just saying, ``Here's a rule, and here's a rule.'' If 
we followed all of the rules, many--you would find that many of 
them conflict.
    It is the responsibility of administrators, at least at a 
high level, to try and see how do we live within the rules, but 
also accomplish the major objective that we have, which is to 
make this a better place for our citizens to live.
    Mr. Issa. Thank you.
    Mr. Pack. A couple of points, and I want to acknowledge, 
Jason, that the local head of the Fish and Wildlife did contact 
me. I had informed him that I was going to testify and told him 
basically what I intended to say. And also the regional 
director received a copy of the testimony ahead of time.
    And we're proposing now, the three of us, to get together 
and see if we can work out some kind of mutual solution to this 
issue.
    On the issue of Federal regulations, I'm a little puzzled 
why we start with the same Federal/Nation-wide regulations, and 
they end up so differently interpreted in different places. 
Jason, you mentioned Florida. I was lucky to live in St. 
Petersburg for several years while I was stationed with the 
U.S. Central Command, and we had in my development, we all used 
recycled water for landscaping for our entire yard.
    This was in the mid 1980's, and there never was any issue 
at all. And of course, recycled water did percolate into the 
ground and became a major source of natural recharge.
    In California, California has been very slow to move to 
tertiary--to use of recycled water for residential irrigation. 
They're just beginning. There's been a couple of projects 
completed, and we have two projects in my district underway 
right now.
    I think California has been a little more conservative in 
interpreting the same rules and regulations. And even we see 
that on the State and local--between the State--between the 
local regional water quality control boards. There's a vast 
difference in the way that they interpret and the way they work 
with the agencies, just between two regional boards.
    Mr. Issa. Tony, if you could, for the record, give a rough 
ratio in California, because we are an interesting place, from 
the standpoint of our use outside the home versus inside the 
home, in those communities that already have it, what the 
quantity of this not potable water consumption is versus the 
interior drinkable water, wash your clothes and your dishes 
with it water?
    How big a part of the equation that can be if we were to 
move to dividing our water throughout California?
    Mr. Pack. I'm not sure I understood your question, but 40 
to 50 percent of all water use is used outside the home is for 
irrigation. In the State of California, virtually none of that 
on a residential basis is recycled water.
    On large landscapes, we've been very aggressive in moving 
ahead with recycled water use, and we're now the fourth-largest 
user of recycled water in the State of California, following 
only Los Angeles, Orange County, and large cities.
    Mr. Issa. All right, and I want to commend you for that.
    The reason I asked the question, as confusing as it might 
have been, is that we are dealing with 40 to 50 percent of the 
water that we presently go through additional treatment, 
chlorinate, deal with lines that have to be maintained and kept 
clean.
    Concerns about lead, arsenic, all kinds of other 
substances, even in microscope amounts--or parts per billion 
amounts--on twice as much water as we would if, in fact, 
California over a period of time adopted a two water supply 
use. Then that would be fair to say?
    Mr. Pack. Yes, sir.
    Mr. Issa. You can tell I am not only thrilled with what you 
are doing in Riverside County, but I am hoping that California 
sees that as a way to dramatically reduce the amount of 
chemicals and cost that we put into our water supply.
    One thing that I don't think we have touched on was the 
role of conjunctive use in habitat projects. We talked about 
Fish and Wildlife and Fish and Game. But where do you see the 
potentials or do you see potentials where conjunctive use can 
also add to potential habitat in the projects?
    Mr. Grindstaff. Looks like I get this one.
    Mr. Issa. You get the whole State of California here.
    Mr. Grindstaff. The whole State of California. Conjunctive 
use is really--in the first place, the places where you can 
store water are typically places where we've pumped the ground 
water table down. So when you add water to the ground water 
table, you are naturally providing more water for habitat, and 
that can make a significant difference directly overhead.
    And typically, if you're next to a stream, then you're 
going to have water flowing out, and that's going to help 
provide year-round flow to that stream. That's a critical thing 
over the long term as a critical way to help provide water for 
habitat.
    It is a significant benefit when we develop those programs. 
And when we evaluate, as a State, when we give a grant to Tony 
or to any other entity, that's one of the things that we look 
for is: have we incorporated that value into the program as we 
move ahead?
    In most cases, where we develop a program, they have. That 
is one of the benefits that we receive.
    Mr. Issa. I am going to probably close with one last 
question, but it again goes to Mr. Kucinich, who couldn't 
remain. He seemed, in his opening remarks, to have considerable 
concern for ground water contamination, the other potential 
problems with--Joseph, you were pretty good at saying it can be 
a factor.
    I am not, by any means, experienced as an engineer in any 
of this. But I do own a swimming pool, and I have a filter. The 
filter becomes pretty useless if you simply continue to use it 
to filter forever. But, in fact, you can back-flush it after 
you run the back-flow, essentially sending down to, in my case, 
the ocean in San Diego.
    The water, you, in fact, have a filter that can be reused 
again. How does that work or does it work as part of the 
consideration when we are using the ground table and you 
potentially, let us say, get a high salt content over time, 
something along that line? Are there factors where, in fact, 
there is some similarity, and you can manage the ground as a 
filter?
    Mr. Grindstaff. From my perspective, one of the great 
benefits of conjunctive management is that you can improve 
ground water quality, and you have to design that in. You have 
to think about that when you're starting.
    But the solution to poor water quality is to not just leave 
it in the ground and let the contaminant, whatever it is, 
buildup there. The solution is to get it out of the ground. And 
over time, the best way to do that, typically, is to pump the 
water out and treat it and remove the contaminant.
    So whether in Orange County, they're doing the ground water 
replenishment system, where they're dealing with salt by 
putting virtually salt-free water into the ground water table, 
and they're going to reduce the TDS of their ground water table 
significantly.
    Or if it's a program where in the Chino Basin, they're 
putting recycled water into the basin at a higher TDS level, 
but at the bottom end of the basin, they're pumping it out and 
treating it and removing all of the excess salt. Over time, 
they remove much more salt than they put in. So they're 
improving the water quality.
    I think it's a key element, and there are issues. But they 
are certainly the kinds of things that you can address. In 
fact, I think it provides an economic incentive, if done right, 
to clean up the ground water. So that Tony has an interest in 
maintaining quality in that basin and improving that basin 
because he's putting more water in.
    So I'm--you can tell I'm an unabashed supporter.
    Mr. Issa. Go ahead, Tony.
    Mr. Pack. I would almost echo what Joe has said. In the 
Menifee/Romoland/Perris/Moreno valley--that entire valley basin 
there--the ground water levels are rising because many of the 
agricultural users have left. And as that has risen, it is 
going into the Vatos, and it is picking up contaminants. But it 
also is four to five times more saltier than we're allowed to 
serve as drinking water.
    So we've been developing an extensive well conveyance and 
desalination system in that area. We have two plants up and 
running now and a third under design. And we're actually 
removing all the salts and sending them down through the SARI 
line to the Pacific Ocean.
    We're not only preventing further contamination as the 
ground water levels rise, but we're actually taking out the 
salts and replacing it with lower salinity water.
    Mr. Issa. Yes, Jason.
    Mr. Peltier. Yes. The U.S. Geological Survey will be--is 
scheduled, anyway, to release a report. It's kind of a national 
survey of volatile organic compounds found in ground water 
across the United States later this month. I think, you know, 
it's safe to say that we find VOCs a lot, not, however, at 
levels--very, very rarely at levels which are of concern, but 
they're there.
    You have hit on something, that the re-injection or the 
percolation of chlorinated water back into the--in the ground 
water basin has implications, and we need to be mindful of 
them. Because the notion of what a gallon of gasoline can do to 
an aquifer is real.
    So I think that's part of those things that some might view 
an impediment. Others with responsibility for protecting water 
resources would look at as that's part of our role and 
responsibility in making sure that future generations have the 
benefit of a good water supply.
    Mr. Issa. I want to thank you all. I am going to revise and 
extend in one sense because you brought up gasoline.
    California is very concerned about the legacy of MTBE. We 
continue to have, to be honest, a fertilizer is not an 
insignificant contamination, and I am always befuddled to 
realize that fertilizer into the ground water is more of a 
problem in residential areas than it is agricultural areas. It 
is always amazing. We assume it is farms when, in fact, it is 
sod as often as not.
    Is it fair to say--I don't want to put words in your mouth, 
but I am almost doing that--is it fair to say that in all 
cases, active management of the water table, including 
conjunctive use, gives us an opportunity to do more about 
taking out MTBE or other contaminants than, in fact, not doing 
it?
    That there is no case, the reverse of it, there is no case 
in which by definition we are better off not doing, injecting 
anything into the ground table, dealing with the ground table 
and just hoping that it goes away?
    Mr. Peltier. I'm really tempted to--my degree is in 
agriculture, and my minor is in economics. It's not in 
geohydrology or geochemistry. I don't want to answer your 
question. I would say----
    Mr. Issa. But you were glad I defended the farmer on his 
fertilizer, weren't you?
    Mr. Peltier. I would say the simple answer to your absolute 
question is, no, it's not always true. Because nothing is, in 
my experience, always true. There is always exceptions.
    Mr. Issa. Didn't I say generally? I could have the record 
read back, and I guarantee that they will read it back the way 
I want it to. [Laughter.]
    Generally?
    Mr. Peltier. Generally.
    Mr. Issa. Thank you.
    Joseph.
    Mr. Grindstaff. Active management, I think, is always 
better. But that doesn't mean that there aren't cases where, 
for example, you have a concentrated plume of a contaminant, 
where it is not better to treat that plume without putting 
water in there and spreading it further.
    I think you have to look at those issues on a case-by-case 
basis.
    Mr. Issa. OK. Tony.
    Mr. Pack. The bottom line really is there isn't any more 
surface water. We've got to use conjunctive use, desalination, 
recycled water. We've got to go to all these options to meet 
the future demands.
    You really don't have a choice not to use ground water, and 
like Joe says, you manage it, and you look to what you're 
treating. In many cases, treatment is a function of how much 
money you want to spend.
    Mr. Issa. Well, you have completed the record very well for 
us. I thank you for doing it in a timely fashion.
    The record will remain open for at least 10 legislative 
days so that you may add any comments that you think of, things 
that you want to revise and extend with, and so that Members 
that will have an opportunity to put their comments or 
questions in.
    And once again, I thank you all for your presence.
    This meeting is adjourned.
    [Whereupon, at 2:55 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7514.034

[GRAPHIC] [TIFF OMITTED] T7514.035

[GRAPHIC] [TIFF OMITTED] T7514.036

[GRAPHIC] [TIFF OMITTED] T7514.037

[GRAPHIC] [TIFF OMITTED] T7514.038

[GRAPHIC] [TIFF OMITTED] T7514.039

                                 <all>

</pre></body></html>
